No.

in the
Supreme Court of the United States
Edward J. Mierzwa
Petitioner
vs.

Arkadiusz M. Dudek
Respondent(s)

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the 3rd Circuit

Petition for Writ of Certiorari

By:
Edward J. Mierzwa, pro se
11 Brook Street
Hackensack, NJ 07601-1509
Telephone: (201) 342-4840
i

RECEIVED
JUL 2 2 2020

Question Presented

As the Court of Last Resort, will the Supreme Court of the
United States exercise its supervisory powers to remedy
the unlawful process, enacted by the Lower Courts, to
substitute racketeering-based court manipulation in lieu
of the prescribed Federal Rules of Civil Procedure?

ii

List of Parties
All parties do not appear in the caption on the cover page.
A list of all parties to the proceeding in the court whose
judgment is the subject of this petition is as follows:
John Ashcroft
Alberto Gonzalez
Paul Clement
Peter Keisler
Michael Mukasey
Christopher Christie
Ralph Marra, Jr.
Paul J. Fishman
Arkadiusz M. Dudek
Diane Gaffney
James Gaffney
United States of America
John Does 1-100
Jane Does 1-100

iii

Table of Contents
Page No.
Opinions Below:

1

Jurisdiction:

2

Constitutional
Involved:

&

Statutory

Provisions

3

Statement of the Case:

4

Reasons for Granting the Writ of Certiorari:

5

Conclusion:

9

iv

Index to Appendices
Page No.

A

USSC Letter citing filing deficiencies,
dated 14 May 2020, updated deadline

11

B

USSC Order, dated 19 February 2020,
No. 19A895, granting filing extension
to 27 April 2020

12

C

Petitioner’s Application for Filing
Extension, dated 29 January 2020
[attachment: Appendix D-E-F]

13

D

USCA Order/Opinion [Per Curiam],
dated 29 November 2019, USDC
Order affirmed

17

E

USCA Letter of Transmittal to USDC
re: Mandate, dated 21 January 2020
[attachment: Appendix D]

23

F

USCA Order re: Judgment, dated 21
January 2020

24

G

Motion for Mediation, dated 22
October 2019, filed by Petitioner/
Appellant, denied see Appendix D

25

H

Reply Brief, dated 09 August 2018,
filed by Petitioner/Appellant

29

I

Informal Brief, dated 05 June 2018,
filed
by
Petitioner/Appellant,
[attachment: Appendix J thru N]

35

V

Page No.
J

Notice of Appeal, dated 07 May 2018,
filed
by
Petitioner/Appellant,
[attachment: Appendix J-K]

37

K

Motion for Leave to File Interlocutory
Appeal, dated 18 April 2018, filed by
Petitioner/Appellant
[attachment:
Appendix L]

38

L

USDC Order [unpublished], dated 06
April 2018, dispositive

39

M

USMJ Order, dated 08 April 2018,
dispositive

43

N

USMJ Order, dated 08 May 2018,
dispositive

45

O

USCA/USDC Letter, dated 02 May
2018, motion papers forwarded
[attachment: Appendix K]

85

P

Notice of Non-participation re:
Appeal, dated 08 May 2018, filed by
Diane Gaffney, Defendant

86

Q

Notice of Non-participation re:
Appeal, dated 23 May 2018, filed by
James Gaffney, Defendant

87

R

Civil Appeal Information Statement,
dated 07 May 2018, filed by
Petitioner/Appellant

87

Vi

Page No.
S

USCA General Docket, dated 04 May
2018

89

T

USCA Motion to Proceed on Original
Record and Waiving Transcript, dated
07 May 2018, filed by Petitioner/
Appellant

89

U

Amended Complaint, ECF No. 24,
dated 23 August 2017, filed by
Petitioner/Appellant

90

vii

in the
Supreme Court of the United States
Petition for a Writ of Certiorari to the United States Court
of Appeals for the 3rd Circuit
Petitioner respectfully prays for a Writ of
Certiorari regarding the Opinions Below:
Opinions Below:
Federal Courts
The Opinion of the United States Court of Appeal for the
Third Circuit is incorporated in Order, dated 29 November
2019, appearing at Appendix C; to the Petitioner's best of
knowledge and belief is designated for publication and not
yet reported.
The Opinion of the United States District Court for the
District of New Jersey, Vicinage of Newark is incorporated
in Order, dated 06 April 2018, appearing at Appendix L;
and, is unpublished.

l

Jurisdiction:
Federal Courts
The date on which the United States Court of Appeal for the
Third Circuit decided my case was 29 November 2019; no
petition for rehearing was filed in my case.
On 14 May 2020, the Clerk of the United States Supreme
Court notified Petitioner of filing deficiency regarding
Application No. 19A895; copy of letter appears at
Appendix A.
An extension of time to file for a Writ of Certiorari was
granted to and including 27 April 2020 on 19 February
2020 in Application No. 19A895; appearing at Appendix B.
The jurisdiction of this court, The Supreme Court of the
United States, is invoked under 28 USC § 1254(1).

2

Constitutional & Statutory Provisions Involved:
Fourth, Fifth, Sixth and Fourteenth Amendments to the
Constitution of the United States
18 U.S.C. § 241, Conspiracy Against Civil Rights
18 U.S.C. § 1001, Statements and Entries Generally
18 U.S.C. § 1343, Civil Rights & Elective Franchise
18 U.S.C. § 1961, Racketeering
28 U.S.C. § 1367, Supplemental Jurisdiction of State Claims
28 U.S.C. § 1331, Federal Question
28 U.S.C. § 1343(a), Deprivation of Civil Rights
28 U.S.C. § 1346(b)(1), Federal Tort Claims Act
28 U.S.C. § 1391(b)(2), Jurisdiction and Venue matters
28 U.S.C. § 2403(a)(b), Notice to US Solicitor General
28 U.S.C. § 2412, Recovery of Plaintiffs Litigation Costs
28 U.S.C. § 2672, Administrative Adjustment of Claims
28 U.S.C. § 2674, Liability of United States
28 U.S.C. § 2675, US Agency Disposition Prereq; Evidence
28 U.S.C. § 2677, Compromise
42 U.S.C. § 1983, Civil Action for Deprivation of Rights
42 U.S.C. § 1985, Conspiracy to Interfere with Civil Rights
42 U.S.C. § 1986, Action for Neglect to Prevent
42 U.S.C. § 1988, Vindication of Civil Rights
N.J.S.A. 2C:33-4, of Vindictive and Malicious Harassment
N.J.S.A. § 10:6-1 et seq., New Jersey Civil Rights Act
N.J.S.A. Title 59, New Jersey Tort Claims Act

3

Statement of the Case:
Please refer to Amended Complaint, Appendix U, page 91
and U 01, Nature of Complaint. The merits and contentions
were properly presented on the filing date of 13 April
2017. Clerk of USDC wrongfully entered the filing date of
complaint and refused to make any corrections prior to the
issuance of Final Order by the presiding judge; said Order
based significant decisions upon the error that affected the
Statute of Limitations. Procedurally, the merits of the case
were properly pleaded, Appendix U, and wrongfully
terminated; upon appeal, Petitioner requested a trial de
novo. A series of procedural errors were brought to the
attention of the USCA for the 3rd Circuit and disregarded.
The panel of judges made light of the entire situation. The
well-founded pleadings are based upon Defendants
blatant abuse of federal and state laws that would be
augmented with Discovery findings that would identify the
government employees working within the United States
Department of Justice and put to question as to why: (1J
the United States Department of Justice refused to
intervene in 2005 and ignored subsequent United States
Department of Justice Duty Forms; (2) Glenn A. Fine, as the
Inspector General of the United States Department of
Justice was contacted on 27 March 2007, demonstrated
contempt regarding the inaction by said Department; (3)
the current lead attorney for the United States Department
of Justice would be granted an Order to Stay Discovery and
create unwarranted hubbub about a SF-95 Form not being
filed, while the transgressions of the Justice Department
commencing in 2005 are allowed to continue to the
present. Upon resolve, a SF-95 will follow. As of this filing
date, 14 July 2020, the United States Department of Justice
remains mum on its obligations to investigate and
prosecute the "honorable public servants" within their
Department and federal judiciary.

4

Reasons for Granting the Writ of Certiorari:
Prior to approaching the United States Supreme Court,
Petitioner beckoned the United States Court of Appeal for
the Third Circuit to grant an Order for Mediation; thus,
sparing any embarrassing scenarios. For dubious reasons
all their own, the panel of judges opted to wrongfully
affirm the imprudent Order of the District Court and
perpetuate institutional bias to benefit the reprobates.
The principle of long-term self-interest was sorely
compromised; thus, producing undesirable Magnitude of
Consequences that caused further injury to the Petitioner.
This degree of unlawful and unethical behavior does not
translate into civilized society’s accepted principles of do's
and don't/s. Understandably, state and federal courts are
bound to provide a fair and impartial tribunal, to all parties
concerned, by ensuring that laws, regulations, and court
policies are followed. From the outset, the Complaint
immediately drew the wrath of the Clerk of the United
States District Court for the District of New Jersey, Chief
Judge, Presiding Judge and Magistrate Judge. In short
order, a concerted administrative arrangement tainted the
pre-trial proceedings. Court personnel were instructed to:
falsify the date sensitive filing date for the complaint,
whitewashing entries into the Docket Report [DR],
entering an Order into the DR from a non-related
proceeding, entering an Order without a motion hearing,
refusal to file Petitioner’s documents, permit nonconforming filings from defendants to comport with
whimsical DR entries, refusal to make corrections to the
DR until the final order was entered, making false
assurances that errors committed by the Clerk were
remedied, diligent inquiry to case related matters by the
Petitioner were stonewalled, motion hearings were not
calendared, the Clerk also refused to make entries of
default as the pleadings were not contested by several
Defendants, partial summary judgment was justified and

5

not granted. The magistrate judge impeded all Discovery
by refusing to vacate a wrongful Order entered for that
purpose. Within the Complaint, demand for Discovery was
made as personal papers from the USDOJ needed to be
correlated with department records. The egregious
conduct of the Chief, Presiding and Magistrate Judges were
documented in a Complaint of Judicial Misconduct. The
Executive Committee for the Third Circuit dismissed the
complaint, unearthing no actionable fault, all without
following the guidelines of Court Canons and the Code of
Professional Conduct.
Court personnel, government departments and agencies
need to follow the principles of government requirements
regarding ethical conduct, in the least, to enhance the
general public's perception of the services rendered. The
endless pages of job descriptions written into employee
manuals can be summarized with the phrase "do the right
thing." All too frequently, cubicle wisdom will dictate
workplace Rules; (1) the boss is always right; (2) when the
boss is wrong, see rule #1. On the upside, error of
judgment does occur in the workplace and becomes fair
rationale for the various levels of immunities. Businesses
in the private sector utilize errors and omissions insurance
policies, while government entities self-insure for these
bloopers. The immunities afforded to public employees for
job performance are conditional; the criteria consisting of
honesty, integrity, ethics and morals being deployed when
performing officially recognized employment duties and
responsibilities. The scandalous activities outlined herein
evidence that a myriad of United States employees acted in
bad faith, debasing official job responsibilities to the level
of criminality; instigated by superiors exercising their
political deviance, bullying tactics and disregard towards
the employee rights whose poor job performance did
impact the outcome of the entire proceedings.

6

Whistleblower statutes are meaningless in this type of
workplace environment; theoretically, these conventional
safeguards are designed so that employees can focus on
their employment responsibilities without fear of negative
consequences. Petitioner, proceeding pro se, did not
expect court personnel to compromise 28 U.S.C. § 955
regarding legal advice, neither expecting any special
exceptions, privileges or deviation from local and federal
court rules. A Motion for Interlocutory Appeal was
submitted on 18 April 2018; the Office of the USDC Clerk
adamantly refused to file appeal related papers,
necessitating intervention by personnel of the Human
Resources Department of the United States Courts. The
United States Court of Appeal for the Third Circuit received
courtesy copies of the Motion for Interlocutory Appeal;
subsequently, it was determined that the challenged Order
was final. A Notice of Appeal was immediately filed.
Within the Informal Brief, Petitioner cited the misapplied
filing date of the complaint together with the innumerable
procedural errors and convoluted proceedings generated
by the court below, all challenging the wrongful one-sided
skewing of “findings." Petitioner made demand for Trial De
Novo. The Panel of Circuit Judges strongly supported the
Presiding Judge and the proceedings within their Order
and Opinion, demonstrating contempt towards the many
recommendations of judicial committees, court rules,
Internal Operating Procedures, case law and overall
fairness. In the eyes of the public, the court is expected to
emanate honor, fairness and dignity; in contrast, the secret
proceedings, obstruction and cyberbullying tactics of the
United States District and Appellate Courts for the Third
Circuit calls for a scathing, comprehensive audit by the
Administrative Office of the United States Courts [AO] with
the view that government resources entrusted to the
stewardship of the United States Courts of the Third Circuit
are being used to subsidize racketeering activities, i.e.
case-fixing on the public's dime. The federal courts bear a
7

dear cost to taxpayers as annual congressional
appropriations for the operations budget are in the vicinity
of $7.5 billion plus wide-ranging facilities and overhead
costs. The combined salaries of the controverted Circuit
Judges; Chief, Magistrate, Presiding Judges and USDC Clerk
amounts to $1.5 million annually. It is befitting to imprison
this crew of malfeasors at an annual expenditure of $280k,
certainly a cost-effective remedy in monetary terms.
Behind the fortress like confines of the court facilities,
these court officers are given the opportunity to freely
operate without effective oversight, overextending the
tenets of judicial immunity, lacking the integrity for
dealing with the public, all the while ignoring the Canons
as a moral compass. The proper discipline and prosecution
of these corrupt court officers, to include any outside
parties of influence is honorable as it increases the public
trust of the courts. Fundamentally, courts are service
organizations that decide criminal and civil matters,
ranging from the complex to the minor infractions that
befall more than a few Americans during a lifetime.
Decisions rendered by the courts impact the public with
great magnitude of ethical intensity.
Case-fixing is taboo and quickly broadcast in the current
environment of instant communications where publicity of
scandalous actions and/or inactions of public officials are
gladly exposed in newspapers, television and internet
based news media, especially when spin doctoring of the
facts is not necessary to get the truth reported. A personal
observation of the United States Court website the listing
of priorities, as viewed by the courts, are: (1) the court; (2)
lawyers; (3) the public. Whatever the order of priorities,
an outcome is to be determined with fair administration of
the laws; whereby, the United States District and Appellate
Courts for the Third Circuit failed this Petitioner with its
shameless dysfunctionalities.

8

Conclusion:
A well-pleaded, actionable Complaint, with jury demand,
that exceeded the criteria set forth in the Federal Rules of
Civil Procedure was commandeered by officers of the court
committing repeated racketeering activity during the
course of their employment with the United States District
and Appellate Courts of the Third Circuit, utilizing taxpayer
funded resources for their wrongful antics. Frivolous motions
to dismiss were filed out of time by the Defendants and in
a couple of instances not filed at all. Meritorious papers
filed by the Petitioner were either dissed or censored by
non-entries to the docket sheet, even with hand carries to
the Office of the Clerk at the US Courthouse. The presiding
and magistrate judges rubber stamped the meaningless
papers filed by the Defendants into Orders with Opinions
best characterized as superfluous statements of
disorganized nonsense. It shocks the conscience that the
Circuit Judges took offense to Petitioner's reference to the
capers of the District Court as kangaroo court antics.
Shamefully, this Panel of Circuit Judges treated the appeal
with the demeanor of the proverbial three wise monkeys.
This entire matter is a total breakdown of ethics and legal
responsibilities. As a Petitioner, I consider it a privilege
and citizen's duty to bring this to the attention of the
Supreme Court of the United States for proper disposition
and corrective measures. My approach required many
hours of intensive research, correlating legal matters with
transferable skills from my professional background and
medical supervision for the stresses endured; also, no
assists from contributing ghost writers are involved.
There appears to be some type of understanding in the
legal community that civil actions involving "high ranking
government officials” subjects the potential client to the
bum's rush out the door; Petitioner had no choice and was
compelled to go the pro se route, enduring the indignities
associated with the do-it-yourself plan:

9

(1) being denied a fair and impartial tribunal; (2) court
mandated lack of access to electronic document filing; (3)
mediation being off limits.
By virtue of the demonstrated institutional bias caused by
the USDC and USCA, Petitioner entreats the Honorable US
Supreme Court Justices to ensure the functions entrusted
to the Courts Below are carried out, with directives upon
remand to: (1) vacate the final USDC Order, ECF No. 40 in
its entirety; (2) concerning Defendants: Arkadiusz Dudek,
Diane Gaffney and James Gaffney, Default and granting
Order for Summary Judgment; (3) concerning: United
States of America and US Department of Justice personnel,
unimpeded Discovery without any delays; (4) mandate a
Change of Venue to the nearby USDC for the District of
Southern New York at Foley Square; (5) grant Order to
allow electronic court filings by the Petitioner/Plaintiff;
(6) any other equitable relief as good conscience dictates.
This accommodative strategy is reasonable and justifiable,
all in the honorable pursuit of justice.
Respectfully submitted,

0
Dated: J^FJuly 2020

By:

Edward J. Mierzwa, Petitioner

10

